HHS/OIG, Audit -"Review of Medicaid Payments for Outpatient Services and Prescription Drugs
Provided to Incarcerated Recipients in the State of North Carolina,"(A-04-02-06003)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicaid Payments for Outpatient Services and Prescription Drugs Provided to Incarcerated
Recipients in the State of North Carolina," (A-04-02-06003)
October 31, 2002
Complete
Text of Report is available in PDF format (2.7 mb). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our review was to determine
the extent to which North Carolina used Medicaid funds to pay for prescription drugs and other (non-inpatient/long
term care) health care services provided to inmates.  Medicaid regulations provide that Medicaid
will not cover outpatient services or the cost of prescription drugs for inmates.  During the
period October 1, 1998 through September 30, 2001, North Carolinas controls were generally adequate
to ensure that Medicaid did not pay for outpatient services and prescription drugs provided to incarcerated
recipients.  The State concurred with our overall finding.